March 30, 2007

TERRY WILSON
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT:     Audit Report – Postal Vehicle Service Transportation Routes – Memphis
             Processing and Distribution Center (Report Number NL-AR-07-003)

The U.S. Postal Service network transportation involves contracted transportation and
transportation using Postal Service vehicles and employees. Network transportation
using Postal Service vehicles and employees is called postal vehicle service (PVS).

This report presents the results of our audit of PVS routes controlled by the Memphis
Processing and Distribution Center (Project Number 06XG019NL000). Our objectives
were to evaluate the effectiveness of PVS operations and identify opportunities to save
money. This report, the first in a series, responds to a request from the Vice President,
Network Operations, to audit PVS operations nationwide.

The Memphis P&DC could improve PVS effectiveness and save more than $7.3 million
over 10 years if officials remove 18,874 excess hours from existing PVS schedules.
Officials could eliminate hours without negatively affecting service because schedules
contain: (1) unassigned time where drivers were not needed for a specific trip or related
activity, (2) duplicate trips, and (3) trips that were unproductive because they were not
full and their loads could be consolidated.

The Postal Service transportation network is dynamic and requirements constantly
change. Accordingly, throughout our audit we coordinated with local transportation
managers and proposed schedule realignments to them. The managers then reviewed
each proposal in conjunction with their own assessment of operational requirements
and we discussed any differences. As a result of our discussions, the officials agreed to
remove 13,963 excess hours from PVS schedules; however, they considered 4,911
hours we recommended for reduction as still needed to meet on-time performance
standards. Agreement on the 13,963 hours reflects a high level of cooperation between
local transportation managers and U.S. Postal Service Office of Inspector General
(OIG) auditors. Nonetheless, we continue to believe the remaining 4,911 hours could
produce savings without jeopardizing on-time performance. We recommended the Vice
President, Southeast Area Operations (1) verify the elimination of the 13,963 hours that
Postal Service managers agreed to remove from trip schedules, and (2) reassess
the 4,911 hours which Postal Service managers still feel are necessary. We will report
$7,344,820 in funds put to better use in our Semiannual Report to Congress.

Management agreed with our recommendations. They stated that changes associated
with the 13,963 hours identified in recommendation 1 had been implemented as of
January 6, 2007, that they were reassessing the 4,911 hours identified in
recommendation 2, and that they would report the results of the reassessment when it
was completed. Management’s comments and our evaluation of these comments are
included in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Don Spatola
    Denny Unger
    Katherine Banks
    Lynn Forness
    Deborah A. Kendall
Postal Vehicle Service Transportation Routes – Memphis                                    NL-AR-07-003
 Processing and Distribution Center


                                        INTRODUCTION
 Background                    U.S. Postal Service transportation includes both nationwide
                               “network” transportation between cities and major facilities
                               and “delivery” transportation between local post offices and
                               neighborhood delivery or pick-up points.

                               Network transportation costs the Postal Service $8.1 billion
                               every year and is the fastest growing cost segment in the
                               Postal Service’s annual operating budget. Network
                               transportation includes two categories — contracted
                               transportation and transportation using Postal Service
                               vehicles and employees. As shown below, contracted
                               transportation — which includes approximately 17,000
                               highway contract routes (HCRs) — is by far the largest
                               category.
                                                          Network Transportation

                                                Category                 Percentage   Annual Cost

                                    Contracted transportation                  88      $7.1 billion

                                    Transportation with Postal Service
                                    vehicles and employees                     12       1.0 billion

                                                  Total                       100      $8.1 billion


                               Transportation using Postal Service vehicles and
                               employees is called postal vehicle service (PVS). The




     Early 20th Century
   Post Office Department
   vehicles and uniformed
         personnel.




                               Post Office began using owned and operated vehicles in
                               October 1914 to avoid a monopoly threat posed by New
                               York City horse-drawn screen wagon contractors. Since



                                                   1
Postal Vehicle Service Transportation Routes – Memphis                                       NL-AR-07-003
 Processing and Distribution Center


                                then, transportation managers have been required to weigh
                                the risks and benefits of “contracted” transportation against
                                the risks and benefits of “in-house” transportation. That
                                analysis includes balancing operational flexibility with cost.
                                Transportation managers explain PVS transportation




   Mail transportation in an
      early 20th Century
  horse-drawn screen wagon.




                                provides flexibility for irregular schedules and short distance
                                trips, but personnel and capital costs make it more
                                expensive. They also explain contracted transportation is
                                less costly, but because contract changes can take 30 to
                                45 days or more, contracting is less flexible to meet short
                                distance rapidly changing customer service requirements.




    PVS cargo van transporting mail from a mail          Postal Service highway contractor hauling mail on
     processing facility to the historic Memphis           Interstate 40 between Memphis and Nashville,
          Post Office, February 12, 2007.                            Tennessee, March 19, 2005.

                                PVS is capital and personnel intensive. PVS capital assets
                                include 1,900 cargo vans, 2,200 tractors, and 4,700 trailers.
                                These vehicles are serviced and repaired at 322 Postal
                                Service vehicle maintenance facilities (VMFs) or annexes
                                and local commercial garages nationwide.




                                                   2
Postal Vehicle Service Transportation Routes – Memphis                              NL-AR-07-003
 Processing and Distribution Center


                                PVS currently involves about 10,000 employees including
                                8,500 uniformed drivers, 620 administrative support
                                personnel, and 930 managers. PVS drivers and support
                                personnel are represented by the American Postal Workers
                                Union (APWU). APWU and Postal Service agreements
                                restrict PVS over-the-road routes to 350 miles round trip
                                and 8 hours operating time.


      PVS capital assets
     include 1,900 cargo
   vans, 2,200 tractors, and
        4,700 trailers.
    PVS tractors, trailers,
     and cargo vans are
   serviced at a nationwide
   network of 322 VMFs, as
        well as in local
    commercial garages.
  Here a cargo van arrives at
      the Memphis VMF,
      February 12, 2007.



                                PVS vehicles and personnel are typically assigned to Postal
                                Service network facilities such as bulk mail centers (BMCs)
                                or processing and distribution centers (P&DCs). These
                                facilities are located in or near metropolitan areas.

                                PVS operations are normally conducted in urban and
                                suburban areas within 50 miles of the base facility.
                                Operations can include:

                                   •   Yard operations defined as the movement of trailers
                                       and equipment in or around a facility yard.

                                   •   Transportation to and from major commercial
                                       business mailers.

                                   •   Transportation to and from other facilities or post
                                       offices.

                                PVS drivers log about 150 million miles every year. There
                                are about 300 processing facilities in the Postal Service
                                network. Only 150 conduct PVS operations. Because PVS
                                operations are localized, they are managed at the facility
                                level under guidance and policy provided by district, area,
                                and headquarters transportation officials.



                                                   3
Postal Vehicle Service Transportation Routes – Memphis                            NL-AR-07-003
 Processing and Distribution Center



                                The Vice President, Network Operations, requested that we
                                audit PVS operations nationwide. Because individual
                                facilities control PVS operations, our audit approach is
                                localized. This report — the first in a series — focuses on
                                PVS operations at the Memphis P&DC in the Postal Service
                                Southeast Area.

 Objectives, Scope,             The objectives of our audit were to evaluate the
 and Methodology                effectiveness of PVS operations and identify opportunities to
                                save money.


      PVS includes yard
     operations, network
   transportation between
    cities or major Postal
    Service facilities, and
     customer service for
      major commercial
      business mailers.
   The tractor in the picture
   is called a “spotter” and
       is used for “yard”
      operations to move
    trailers in and around a
   facility yard. The Postal
       Service owns 382
            spotters.
     Jet Cove processing
      facility, Memphis,
          Tennessee,
        June 28, 2006.



                                Using Postal Service computer-generated data and other
                                records, we examined all 165 Memphis P&DC driver
                                schedules and identified 141,301 workhours associated with
                                those schedules. We also evaluated load volume. We did
                                not audit or comprehensively validate the data; however, we
                                noted several control weaknesses that constrained our
                                work. For example, some computer records had missing
                                data and inaccurate load volumes. Even though data
                                limitations and other restrictions constrained our work, we
                                were able to compensate by applying alternate audit
                                procedures, including source document examination,
                                observation, physical inspection, and discussions with
                                appropriate officials.




                                                   4
Postal Vehicle Service Transportation Routes – Memphis                            NL-AR-07-003
 Processing and Distribution Center


                                During our work, we visited the Memphis P&DC, other
                                regional facilities, and local post offices. We reviewed
                                relevant Postal Service policies and procedures, interviewed
                                managers and employees, and observed and photographed
                                operations. We evaluated the type of mail carried,
                                considered on-time service standards, visited major
                                commercial business mailers, and considered Southeast
                                Area initiatives to improve customer service. We examined
                                the cost of PVS operations, including the cost of PVS
                                personnel, fuel, and equipment, and considered potential
                                contracting alternatives. We also identified PVS trip
                                duplications and analyzed potential trip consolidations.

                                We conducted work associated with this report from
                                April 2006 through March 2007 in accordance with generally
                                accepted government auditing standards and included such




     PVS provides direct
    service to major Postal
      Service customers.

   Here a PVS tractor-trailer
   is making a mail pick-up
    at a major customer in
   Memphis, Tennessee, on
      February 12, 2007.




                                tests of internal controls as we considered necessary under
                                the circumstances. We discussed our observations and
                                conclusions with management officials throughout our audit
                                and included their comments where appropriate.

 Prior Audit Coverage           Since September 2002, the U.S. Postal Service Office of
                                Inspector General (OIG) has worked with the Postal Service
                                to reduce highway and rail transportation cost. As a result,
                                we have issued 31 audit reports that identified potential
                                savings exceeding $101.5 million. For more detailed
                                information about these reports, see Appendix A.




                                                   5
Postal Vehicle Service Transportation Routes – Memphis                                         NL-AR-07-003
 Processing and Distribution Center


                                       AUDIT RESULTS
 Postal Vehicle            Our examination of annual PVS workhours identified
 Service Excess            18,874 unnecessary hours. The Memphis P&DC could improve
 Hours                     PVS effectiveness and save more than $7.3 million over 10 years if
                           officials remove the unnecessary hours from existing PVS
                           schedules. Officials could eliminate the hours without negatively
                           affecting service because schedules contain:

                               •   Unassigned time where drivers are not needed for a specific
                                   trip or related activity.

                               •   Duplicate trips.

                               •   Unproductive trips where the loads are not full or could be
                                   consolidated.

                           Most potential savings (89 percent) would be achieved through
                           personnel workhour reductions. However, the Postal Service would
                           also realize a reduction in fuel costs and damage claims, as
                           indicated below. For more detailed information, see Appendices B
                           and C.

                                                       Allocation of Potential Savings

                                          Fuel – 10%
                                                                    Damage Claims – 1%


                                                                        Personnel – 89%




                                           Cost Category           Percentage     Potential Savings

                                             Personnel                  89                $6,570,000
                                                Fuel                    10                  720,000
                                          Damage Claims                  1                   55,000
                                               Total                   100                $7,345,000

                           The Postal Service transportation network is dynamic and
                           requirements constantly change. As we discussed in the objectives,
                           scope, and methodology section of our report, Postal Service data
                           has certain limitations. Accordingly, throughout our audit
                           we coordinated with local transportation managers and proposed
                           schedule realignments to them. The managers then reviewed each




                                                   6
Postal Vehicle Service Transportation Routes – Memphis                                      NL-AR-07-003
 Processing and Distribution Center


                           proposal in conjunction with their own assessment of operational
                           requirements and we discussed any differences. As a result of our
                           discussions, the officials agreed to remove 13,963 excess hours
                           from PVS schedules; however, they considered 4,911 hours we
                           recommended for reduction as still needed to meet on-time
                           performance standards.
                                 Proposed Consolidations, Workhour Reductions, and Potential Savings

                                           Category               Workhours      Appendix      Savings

                               Workhours management agreed
                               to eliminate.                           13,963       B         $5,331,000

                               Workhours management feels
                               are still needed.                         4,911      C          2,013,000

                               Total                                   18,874                 $7,344,000

                           Agreement on the 13,963 hours reflects a high level of cooperation
                           between the local transportation managers and the OIG auditors.
                           Nonetheless, we continue to believe the remaining 4,911 hours
                           could produce savings without jeopardizing on-time performance.

 Implementation            During the week of February 12, 2007, we met with the Vice
 and Audit Exit            President, Network Operations; the Vice President, Southeast Area
 Conference                Operations; Southeast Area transportation officials; and officials
                           from the Memphis P&DC. The officials agreed with our report and
                           recommendations. Southeast Area and Memphis P&DC officials
                           explained they had already begun to eliminate the hours they
                           agreed were unnecessary and would reassess the hours they felt
                           might still be necessary.

 Recommendation            We recommend the Vice President, Southeast Area Operations:

                               1. Verify elimination of the 13,963 hours that Postal Service
                                  managers agreed to remove from trip schedules.

 Management’s              Management agreed with our finding and recommendation. They
 Comments                  stated that they were in agreement with the 13,963 hours identified
                           in recommendation 1 and that all changes associated with those
                           hours had been implemented as of January 6, 2007.
                           Management’s comments, in their entirety, are included in
                           Appendix D.




                                                   7
Postal Vehicle Service Transportation Routes – Memphis                            NL-AR-07-003
 Processing and Distribution Center




 Recommendation                2. Reassess the 4,911 hours which Postal Service managers
                                  still feel are necessary and eliminate the hours as indicated
                                  by the reassessment or document the reasons for retaining
                                  the hours.

 Management’s              In his response to our draft report, the Vice President, Southeast
 Comments                  Area Operations provided an attachment indicating why managers
                           felt the hours identified in recommendation 2 were still necessary.
                           However, he said he believed the hours provided the opportunity for
                           additional savings, that the area was reassessing the hours, and
                           that the area would report the results of the reassessment when it
                           was completed. He noted that because the area budgeted on an
                           annual basis, budget calculations might vary from reported savings,
                           which were discounted over a 10-year period in accordance with
                           OIG methodology.

 Evaluation of             Management’s comments are responsive to recommendations 1
 Management’s              and 2. Management’s actions, taken or planned, should correct the
 Comments                  issues identified in the findings.




                                                   8
Postal Vehicle Service Transportation Routes – Memphis                                   NL-AR-07-003
 Processing and Distribution Center


                     APPENDIX A. PRIOR AUDIT COVERAGE
                                                                                          Potential
                                                                          Date Final       Savings
                   Report Name                           Report Number   Report Issued    Identified

Highway Network Scheduling – Pacific Area                TD-AR-02-003      9/24/2002      $4,500,417
Highway Network Scheduling – Northeast Area              TD-AR-03-002     11/25/2002          776,992
Highway Network Scheduling – Capital Metro Area          TD-AR-03-007      3/28/2003        1,144,218
Highway Network Scheduling – New York Metro Area         TD-AR-03-008      3/31/2003          470,123
Highway Network Scheduling – Southwest Area              TD-AR-03-010      7/11/2003        5,989,082
Highway Network Scheduling – Western Area                TD-AR-03-013      9/23/2003       2,721,530
Highway Network Scheduling – Southeast Area              TD-AR-03-014      9/26/2003      11,352,881
Highway Network Scheduling – Eastern Area                TD-AR-03-015      9/30/2003      10,577,367
Highway Network Scheduling – Great Lakes Area            NL-AR-04-003      3/29/2004       5,352,877
BMC Transportation Routes – Great Lakes Area             NL-AR-04-004      9/29/2004       7,660,533
BMC Transportation Routes – Eastern Area                 NL-AR-05-003      3/17/2005       4,791,570
Intermodal Rail and Highway Transportation – Pacific     NL-AR-05-004      3/18/2005       1,046,240
Area
BMC Transportation Routes – Southeast Area               NL-AR-05-005      3/18/2005        6,563,582
BMC Transportation Routes – New York Metro               NL-AR-05-007      6/9/2005         1,499,371
BMC Transportation Routes – Southwest Area               NL-AR-05-008      8/3/2005         7,175,912
BMC Transportation Routes – Capital Metro Area           NL-AR-05-009      9/2/2005           803,060
Intermodal Rail and Highway Transportation Between       NL-AR-05-011      9/19/2005        1,261,308
the Pacific and Southeast Areas
BMC Transportation Routes – Pacific Area                 NL-AR-05-012      9/21/2005        3,123,562
BMC Transportation Routes – Northeast Area               NL-AR-05-013      9/26/2005        2,491,133
MTESC Network – Highway Transportation Routes            NL-AR-05-014      9/28/2005        1,025,812
New York Metro Area
BMC Transportation Routes – Western Area                 NL-AR-06-001      2/14/2006        2,235,812
Intermodal Rail and Highway Transportation Between       NL-AR-06-002      3/10/2006        1,942,841
the Western and Great Lakes Areas
MTESC Network – Highway Transportation Routes            NL-AR-06-003      3/23/2006        1,092,640
San Francisco
MTESC Network – Highway Transportation Routes            NL-AR-06-005      3/28/2006          699,397
Memphis
BMC Transportation Routes – Summary Report               NL-AR-06-004      3/28/2006                0
P&DC Transportation Routes – Great Lakes Area            NL-AR-06-008      7/25/2006        5,289,849
MTESC Network – Highway Transportation Routes            NL-AR-06-009      8/18/2006          801,097
Atlanta




                                                  9
Postal Vehicle Service Transportation Routes – Memphis                                   NL-AR-07-003
 Processing and Distribution Center


         APPENDIX A. PRIOR AUDIT COVERAGE (CONTINUED)
                                                                                          Potential
                                                                          Date Final       Savings
                  Report Name                            Report Number   Report Issued    Identified
MTESC Network – Highway Transportation Routes             NL-AR-06-010     9/18/2006        1,607,510
Greensboro
P&DC Transportation Routes – Pacific Area                NL-AR-06-011      9/21/2006        3,650,035
MTESC Network – Highway Transportation Routes            NL-AR-06-012      9/28/2006        1,476,981
Dallas
P&DC Transportation Routes – Eastern Area                NL-AR-07-002      3/23/2007        2,330,769
Totals                                                        31                         $101,454,501



BMC − Bulk Mail Center
P&DC − Processing and Distribution Center
MTESC – Mail Transport Equipment Service Center




                                                 10
      Postal Vehicle Service Transportation Routes – Memphis                                                              NL-AR-07-003
       Processing and Distribution Center



                                                                  APPENDIX B

           MEMPHIS POSTAL VEHICLE SERVICE TRANSPORTATION ROUTE ELIMINATION COST
                        SAVINGS WITH WHICH POSTAL SERVICE AGREES

PROJECT YEAR                 0           1           2           3          4          5          6          7           8          9
FISCAL YEAR                 2007        2008        2009        2010       2011       2012       2013       2014       2015       2016

LABOR COST AVOIDANCE - LEVEL 7 TRACTOR TRAILER OPERATORS
FY 2007 ACTION PLAN:
ELIMINATE 13,963
HOURS                 $465,642 $572,181 $585,913 $599,975 $614,374                   $629,119   $644,218   $659,679   $675,512   $691,724

FUEL COST AVOIDANCE
94,970 ANNUAL MILES         $49,159    $50,388     $51,648      $52,939    $54,262    $55,619    $57,009    $58,434    $59,895    $61,393

TORT CLAIMS COST AVOIDANCE
94,970 ANNUAL MILES     $3,867           $3,937     $4,008       $4,080     $4,153     $4,228     $4,304     $4,382     $4,460     $4,541

TOTAL COST AVOIDANCE
                          $518,668    $626,505    $641,568     $656,993   $672,790   $688,966   $705,531   $722,495   $739,867   $757,657

PRESENT VALUE @ 5.25%
                          $518,668    $595,254    $579,160     $563,501   $548,266   $533,442   $519,020   $504,987   $491,334   $478,051

NET PRESENT VALUE @ 5.25%
                     $5,331,683




                                                                          11
      Postal Vehicle Service Transportation Routes – Memphis                                                              NL-AR-07-003
       Processing and Distribution Center


                                                                  APPENDIX C

           MEMPHIS POSTAL VEHICLE SERVICE TRANSPORTATION ROUTE ELIMINATION COST
                       SAVINGS WITH WHICH POSTAL SERVICE DISAGREES
PROJECT YEAR                 0           1           2           3          4          5          6          7           8          9
FISCAL YEAR                 2007        2008        2009        2010       2011       2012       2013       2014       2015       2016

LABOR COST AVOIDANCE - LEVEL 7 TRACTOR TRAILER OPERATORS
FY 2007 ACTION PLAN:
ELIMINATE 4,911
HOURS                 $163,773 $201,245 $206,075 $211,020 $216,085                   $221,271   $226,581   $232,019   $237,588   $243,290

FUEL COST AVOIDANCE
61,204 ANNUAL MILES         $31,681    $32,473     $33,285      $34,117    $34,970    $35,844    $36,740    $37,658    $38,600    $39,565

TORT CLAIMS COST AVOIDANCE
61,204 ANNUAL MILES     $2,492           $2,537     $2,583       $2,629     $2,677     $2,725     $2,774     $2,824     $2,875     $2,926

TOTAL COST AVOIDANCE
                          $197,946    $236,255    $241,942     $247,766   $253,731   $259,839   $266,095   $272,501   $279,062   $285,781

PRESENT VALUE @ 5.25%
                          $197,946    $224,470    $218,407     $212,508   $206,769   $201,185   $195,751   $190,465   $185,321   $180,316

NET PRESENT VALUE @ 5.25%
                     $2,013,137




                                                                          12
Postal Vehicle Service Transportation Routes – Memphis   NL-AR-07-003
 Processing and Distribution Center


                 APPENDIX D. MANAGEMENT’S COMMENTS




                                                 13
Postal Vehicle Service Transportation Routes – Memphis   NL-AR-07-003
 Processing and Distribution Center




                                                 14
